OFFICE OF INSPECTOR GENERAL

AUDIT OF
USAID/AFGHANISTAN’S SKILLS
TRAINING FOR AFGHAN YOUTH
PROJECT

AUDIT REPORT NO. F-306-12-002-P
FEBRUARY 7, 2012




KABUL, AFGHANISTAN
Office of Inspector General


February 7, 2012

MEMORANDUM

TO:                  USAID/Afghanistan Mission Director, S. Ken Yamashita

FROM:                OIG/Afghanistan Director, Nathan Lokos /s/

SUBJECT:             Audit of USAID/Afghanistan’s Skills Training for Afghan Youth Project
                     (Report No. F-306-12-002-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
carefully considered USAID/Afghanistan’s comments on the draft report and have included
those comments (without attachments) in Appendix II.

This report contains four recommendations. Based on the mission’s comments and the
supporting documentation, final action has been taken on Recommendations 2 and 3, and
management decisions have been reached on Recommendations 1 and 4.

Please coordinate final action for Recommendations 1 and 4 with USAID’s Audit Performance
and Compliance Division.

Thank you and your staff for the cooperation and courtesy extended to us during this audit.




U.S. Agency for International Development
Office of Inspector General
Country Office Afghanistan
U.S. Embassy
Kabul, Afghanistan
www.usaid.gov/oig
CONTENTS
Summary of Results .................................................................................................................1

Audit Findings ...........................................................................................................................4

     Project Lacked Clearly Defined Goals, Objectives, and Priorities ..........................................4

     Important Communications Were Not Always Documented or Effective ................................5

     Remedy Notice Inaccurately Held Implementer Accountable
     for Illustrative or Proposed Activities ......................................................................................7

     Project Lacked an Approved Marking and Branding Plan ......................................................8

Evaluation of Management Comments..................................................................................10

Appendix I – Scope and Methodology..................................................................................11

Appendix II – Management Comments..................................................................................13



Abbreviations

The following abbreviations appear in this report:

ADS             Automated Directives System
AO              agreement officer
AOTR            agreement officer’s technical representative
ATVI            Afghanistan Technical Vocational Institute
EDC             Education Development Center
KVO             Kunar Vocational Organization
OAA             Office of Acquisition and Assistance
SUMMARY OF RESULTS
Numbering approximately 20 million, young people aged 18–25 make up more than half the
Afghan population. Decades of war, civil unrest, internal conflicts, and political instability have
deprived young people of the education and technical training critical to improving their quality
of life, becoming productive members of Afghan society, and promoting peace and development
in Afghanistan.

The Skills Training for Afghan Youth Project intends to target Afghanistan’s marginalized youth—
those who are highly vulnerable, disenfranchised, unskilled, uneducated, neglected, and most
susceptible to joining the insurgency. Many of these young people live in the highly volatile east
and southern provinces of Afghanistan. The goal of the project is to empower youth and adults
aged 15–25 by providing “technical, vocational, and functional skills for productive work; basic
education equivalency and life skills; and youth outreach and networking.” 1

Implemented through a 3-year, 2 $49.9 million cooperative agreement with the Education
Development Center (EDC), the project includes two phases. Phase One involves designing
activities that (1) strengthen the capacity of selected vocational training institutions in targeted
areas and (2) provide basic education and life skills development in community-based learning
facilities and community-centered civic education activities; Phase Two involves implementing
the activities designed during Phase One. An important element of the project is providing
financial and technical assistance to two Afghan vocational skills training centers: the
Afghanistan Technical Vocational Institute (ATVI) and the Kunar Vocational Organization (KVO),
pictured below.




                       A carpentry student works at Kunar Vocational
                       Organization in Shigal, Laghman Province. (Photo
                       by OIG, July 27, 2011)

As of August 31, 2011, USAID/Afghanistan had obligated $12.0 million and disbursed $9.7
million for the project.


1
  As stated in the Skills Training for Afghan Youth cooperative agreement between the Education
Development Center and USAID.
2
  The cooperative agreement period of performance is from April 1, 2010, to April 1, 2013.


                                                                                                  1
The objective of this audit was to determine whether the project was achieving its main goals of
providing technical, vocational, and functional skills for productive work; basic education
equivalency and life skills; and youth outreach and networking activities.

By funding operational costs, the project has enabled ATVI and KVO to continue conducting
vocational training. In addition, the project has trained staff at ATVI and KVO in financial
management, procurement, and reporting. However, after 16 months, there is little evidence
that the project has made progress toward strengthening the overall technical capacity of these
institutions or empowering youth.

USAID/Afghanistan utilized a design and build strategy for the project. This strategy allowed
EDC, using the program description in its cooperative agreement, to design and present its
implementation plan to USAID for approval after the award. However, the program description
included in the cooperative agreement was loosely defined and largely illustrative, and there is
little evidence that USAID and EDC agreed on key elements of the design. In addition, USAID
and EDC differed on whether the design had been approved and on the specific activities to be
implemented during Phase Two. Without a clearly defined program description outlining
USAID’s expectations for results and a mutual understanding of an approved design, the project
is less likely to implement activities that contribute to the overall goals of the mission.

The Audit Findings section of this report discusses the following issues:

•   The project lacked clearly defined goals, objectives, and priorities. The program description
    did not clearly communicate the project’s purpose, goals, objectives, priorities, and activities
    (page 4).

•   Important communications were not always documented or effective. Some key discussions
    between the agreement officer’s technical representative (AOTR) and EDC regarding the
    design of the project were not documented, and USAID officials’ communications with EDC
    did not achieve the mutual understanding necessary to enable implementation of Phase
    Two of the project (page 5).

•   Remedy notice inaccurately held EDC accountable for illustrative or proposed activities.
    USAID issued EDC a remedy notice for failure to comply with the terms and conditions
    specified in its cooperative agreement. However, the components and activities in the
    agreement’s program description were largely illustrative. As a result, USAID claimed EDC
    had made insufficient progress on tasks that it was not required to perform (page 7).

•   The project lacked an approved marking and branding plan. EDC submitted a marking and
    branding plan to the agreement officer (AO) and AOTR for review on January 22, 2011. Yet
    6 months later, the plan had not been formally approved (page 8).

The report recommends that USAID/Afghanistan:

1. Modify the cooperative agreement to include the clear, discrete tasks and funding necessary
   to complete the project early (page 5).

2. Remind Office of Social Sector Development staff to document significant meetings,
   discussions, and decisions (page 7).




                                                                                                  2
3. Remind acquisition and assistance staff members of the importance of accurate
   communication with USAID recipients (page 8).

4. Finalize and implement the project’s marking and branding plan (page 9).

Detailed findings follow. Our evaluation of management’s comments in on page 10. The audit
scope and methodology are described in Appendix I. USAID/Afghanistan’s comments (without
attachments) are in Appendix II.




                                                                                             3
AUDIT FINDINGS
Project Lacked Clearly Defined
Goals, Objectives, and Priorities

Having a clear purpose, clear goals and objectives, and clear priorities in a program is
important, because without them, it is difficult to design effective activities. The importance
of such clarity is reflected in USAID’s Automated Directives System (ADS) ADS 303.3.13,
which states that the program description in a cooperative agreement must:

•   Clearly identify the purpose of the program.
•   Have clearly established goals.
•   Clearly define the activities that constitute the program.
•   Contain an implementation plan that specifically identifies each element of the program.
•   Clearly and coherently express the specific understandings of both parties.

In addition, ADS 303.3.9.d(1) requires that, before the award of a cooperative agreement,
the AO review the proposed program description and financial plan to ensure that they specify
the objectives of the program, the activities funded by USAID that will achieve the objectives,
and a monitoring system to measure the recipient’s success.

The program description did not clearly communicate the project’s purpose, goals, objectives,
priorities, and activities. In fact, a report by an education specialist who assessed the project in
May 2011 noted that the mission could help the project progress by clearly articulating its
priorities to EDC and specifying which deliverables are of critical importance, which targets are
acceptable, and which areas should be prioritized for implementation. The following factors
contributed to the lack of a clear purpose, goals, objectives, priorities, and activities in the
project.

A significant factor that contributed to the lack of clarity was the sense of urgency on the part of
the mission to use the project as a vehicle to continue funding two very sensitive vocational
educational programs—ATVI and KVO (formerly known as the Kunar Construction Centre).
Both of these institutions had previously received support through USAID/Afghanistan’s
Capacity Development Program. However, when the mission realigned that program to focus
on critical governance activities, another means had to be found to support ATVI and KVO.
This issue had the attention of both the USAID mission director and the U.S. Ambassador. The
mission’s sense of urgency was further heightened because the executive director of ATVI was
an influential former Afghan ambassador to Pakistan.

Ultimately, a concept paper for the project, which included support for ATVI and KVO, was
prepared by an education specialist from USAID’s regional mission in Thailand. This specialist
was brought in because (1) the technical team did not have the time to conduct the necessary
sector assessments and develop the project concept internally, (2) the senior youth and
workforce development officer based in USAID/Washington was not available, and (3) the
technical office was under pressure to complete a new procurement quickly so that the mission
could continue support to ATVI and KVO.




                                                                                                  4
This concept paper included illustrative approaches and interventions, such as

          [r]ecognizing the urgent need to expand access to basic education with inclusion
          of life skills for the vast unschooled youth population of Afghanistan, the project
          proposes to put in place an alternative education program that is equivalent to
          formal basic education, yet flexible and tailored to the specific needs of out-of-
          school youth.

The concept paper also suggested the use of a design and build activity awarded to EDC using
a cooperative agreement. While this approach had the benefit of facilitating a quick award, it
also left the definition of the project to a later date. Ultimately, the concept paper containing
illustrative activities was used as the basis for the design in the request for application sent to
EDC and for the program description in the cooperative agreement.

The lack of a clear purpose, goals, objectives, priorities, and activities in the project, as
discussed above, meant that USAID and EDC did not have a clear mutual understanding of and
expectations for the project and its activities. Consequently, EDC had to revise and resubmit
designs repeatedly, project implementation stalled, and Afghan youth did not get the education,
skills training, and outreach as originally conceived.

USAID/Afghanistan has decided to end the project early. Accordingly, we make the following
recommendation.

      Recommendation 1. We recommend that USAID/Afghanistan modify the cooperative
      agreement for the Skills Training for Afghan Youth Project to include the clear, discrete
      tasks and funding necessary to complete the project early.

Important Communications Were Not
Always Documented or Effective
Standards for Internal Control in the Federal Government 3 notes that significant events should
be clearly documented and that documentation should be readily available. Accordingly,
significant communications between an AOTR and an implementing partner should be
documented. Doing so helps ensure that significant discussions and decisions arising from
those discussions are recorded, affording all participants a mutual understanding of important
issues pertinent to the discussion, key circumstances surrounding those issues, and important
decisions made regarding those issues.

Effective communication is a powerful element in performance management. Pertinent
information must be identified, captured, and communicated in a form and time frame that
enable people to carry out their responsibilities.

Examples of project communications that were not documented or effective follow.

Some Key Discussions and Decisions Were Not Documented. During the period under
audit, the project had two AOTRs. The first AOTR oversaw the project from July 7, 2010, to
January 17, 2011, when the second AOTR assumed responsibility. Key discussions between
the first AOTR and EDC regarding the design of the project were not documented. Both EDC
and USAID officials agree that in the early months of the project design phase, the first AOTR
3
    Government Accountability Office, GAO/AIMD-00-21.3.1, November 1999.


                                                                                                  5
provided EDC with substantial verbal feedback and guidance. Yet most of the guidance and
technical feedback, as well as the decisions reached, were not documented.

Without documentation detailing the discussions that took place and the decisions that were
reached concerning the project, it is not possible to determine whether USAID’s first AOTR
provided appropriate technical and administrative input, whether EDC officials agreed with that
input, or whether agreement was reached on important issues. For example, although the first
AOTR indicated that she and EDC officials discussed the various programmatic options
included in EDC’s technical application and selected the options to be included in the design,
there is no documentation of those discussions or decisions.

In contrast, EDC officials indicated that there was not agreement on those options. Moreover,
EDC officials stated that they could not confirm the nature of the technical feedback that the
AOTR provided. We believe that this difference in understanding contributed to the extended
design period that proved problematic for the project; it might have been avoided had the first
AOTR drafted and shared with EDC staff the minutes of the early meetings.

Time constraints apparently contributed to the first AOTR’s failure to document key discussions
and decisions. She explained that she had many competing demands on her time. For
example, she noted her responsibility for orienting the incoming director of USAID/Afghanistan’s
Office of Social Sector Development while serving as education team leader, mentoring the new
education specialist (later designated her successor as AOTR for the project), and transferring
responsibility to the incoming education team leader. One critical responsibility that consumed
the AOTR’s time was managing the project-related ramifications of the suspension of a major
implementing partner and spearheading the effort to replace that partner—e.g., preparing the
request for application and leading the technical review panel. The first AOTR considered these
tasks of higher priority than preparing minutes of meetings and discussions with EDC.

Communication Between USAID and EDC Was Not Always Effective. USAID officials did
not always communicate with EDC in an effective manner that achieved the mutual
understanding necessary to implement Phase Two of the project. For example, on January 22,
2011, EDC submitted its revised design 4 for the project to the second AOTR. EDC’s
submission included a design document, work plan, staffing plan, budget, and security plan.
Although the second AOTR believed that she had provided the approval of the design document
necessary for EDC to begin implementing Phase Two activities, EDC officials believed that they
did not have the necessary approval. Although the second AOTR had indicated her approval of
the project design and key deliverables in writing, the same document noted that final
adjustments were being made to the budget, as well as to the project’s work, staffing, and
security plans. The fact that these documents were still under review contradicted the approval
granted by the AOTR.

Another example involved communications between the AO and EDC. When EDC submitted
the project design and other key documents, it asked the mission to agree that the design phase
(Phase One) was complete. The AO formally closed the design phase effective the next day—
without final USAID technical approval of the project design and key project documents. At this
time, the AO also urged EDC to move forward with implementation and to refrain from any
further delays in finalizing key areas of work. EDC officials later noted that they were confused
by the formal closure of Phase One and the instruction to move forward with implementation,
because USAID had not yet granted final technical approval of the project work plan or the

4
    EDC submitted its initial version of the project design on October 28, 2010.


                                                                                               6
budget. After the design phase was formally closed, EDC continued to respond to the AOTR’s
request to revise the design documents.

Because of ineffective communication, USAID and EDC had drastically different understandings
about the implementation of Phase Two of the project. USAID officials believed that since they
had approved EDC’s design, formally closing the design phase, EDC would start implementing
Phase Two activities. In contrast, EDC officials recognized that several documents critical to
implementation, such as the work plan, the budget, and the design document, had not received
final USAID approval. Consequently, EDC did not move forward with Phase Two activities.

Several factors contributed to the ineffective communications between USAID and EDC. First,
the second AOTR was new to both USAID and the AOTR role. She was also inexperienced in
managing USAID education projects and providing substantive technical guidance to USAID
implementing partners. Consequently, she did not provide the clear, insightful, and practical
guidance that an experienced AOTR would likely have provided.

Second, the AO and EDC were operating under different assumptions. EDC believed that final
technical approval of the design documents and formal closure of the design phase was
necessary before implementation could begin. In contrast, the AO urged EDC to start
implementing Phase Two of the project solely based on his formal closure of the design phase,
implying that final technical approval was not necessary for implementation. These different
assumptions made effective communication difficult.

Finally, EDC officials did not aggressively seek clarification to bring about mutual understanding
of the project. According to EDC officials, mission staff members were reluctant to contact the
AOTR’s supervisor or more senior USAID officials for clarification of the items in question.

Ultimately, the absence of documentation detailing significant discussions and decisions
reached during the design phase, combined with ineffective communication, led to significant
misunderstandings between EDC and USAID officials concerning how to proceed with the
project. Given that both AOTRs and the AO have departed USAID/Afghanistan, we make the
following recommendation concerning the documentation of significant events, discussions, and
decisions.

   Recommendation 2. We recommend that the director of USAID/Afghanistan’s Office of
   Social Sector Development remind her staff in writing to document significant meetings,
   discussions, and decisions.

Remedy Notice Inaccurately Held
Implementer Accountable for
Illustrative or Proposed Activities

It is important that documents describing significant events do so accurately. Examples of such
documents include minutes of significant meetings, memoranda documenting key decisions,
and critical communications, such as a letter communicating noncompliance with the terms of
an agreement (referred to here as a remedy notice). On May 23, 2011, the AO issued EDC a
remedy notice for failure to comply with the terms and conditions specified in its cooperative
agreement. This letter cited specific areas in which USAID asserted that EDC made inadequate
or insufficient progress toward implementing the terms of the cooperative agreement and
inadequate or insufficient progress on activities outlined in EDC’s technical application.


                                                                                                7
However, the components and activities described in the cooperative agreement’s program
description were largely illustrative and thus not required. Essentially, USAID claimed that EDC
had made insufficient progress on tasks that, for the most part, it was not required to perform.
In fact, the first page of the program description explicitly states: “Phase Two . . . activities are
represented herein as illustrative” and “[f]inal submission and approval of the Phase Two
activities will be incorporated into the award through a formal modification upon approval of
Phase One.” The cooperative agreement was never modified to incorporate a final, approved
Phase One design into the award.

The USAID remedy notice also cited examples of poor or inadequate performance with
reference to EDC’s technical application. Yet page 12 of the technical application submitted by
EDC noted that its proposal included menus for design phase activities for each of the project’s
four components and that, at the start of the project, the EDC team would meet with USAID to
review the design activity options and make a final selection. According to the former AOTR,
USAID and EDC met regularly to discuss the proposed options. However, EDC officials stated
that they did not meet with USAID to agree on the menu items proposed in the technical
application, and no written record of any discussions exists in the AOTR files.

The remedy notice included a few activities that were explicitly “required” in the program
description or the EDC technical application. For example, the program description stated that
during the first phase of the project, the recipient would “take over the ATVI and Kunar
Construction Center from the Capacity Development Program and begin the process of further
strengthening their activities,” which EDC did.

The remedy notice said that EDC’s progress toward implementing several activities required
under the cooperative agreement was insufficient or inadequate. For example, in accordance
with mission priorities, EDC was expected to develop strategic links with the Government of
Afghanistan. Quarterly progress reports and weekly meetings provided evidence that EDC had
indeed actively pursued links with government ministries. Nevertheless, the remedy notice
stated that EDC had not sufficiently demonstrated adequate engagement of Afghans in the
project. In the absence of a final approved design, project work plan, performance indicators,
and baseline data, it is difficult to determine the adequacy of EDC’s progress.

The inaccuracies in the remedy notice issued to EDC arose because the AO relied on
inaccurate assertions that the technical office made regarding the performance required of EDC.
Because much of the notice was inaccurate, it did not achieve its intent of addressing what
USAID viewed as EDC’s inadequate progress on the project. In fact, the notice had the
unintended effect of moving EDC to suspend its agreements with its two key recipients, ATVI
and KVO, and diverting EDC from focusing on programmatic efforts to developing a detailed
response to the remedy notice.

   Recommendation 3. We recommend that USAID/Afghanistan remind its acquisition
   and assistance staff members in writing regarding the importance of confirming that their
   communication with USAID recipients is accurate.

Project Lacked an Approved
Marking and Branding Plan
Since 9/11, America’s foreign assistance programs have been more fully integrated into the


                                                                                                   8
U.S. National Security Strategy. This elevation of foreign assistance increased the need for
U.S. foreign assistance activities to be identified in the host country as being from the American
people. Accordingly, USAID launched a branding campaign and established policies to ensure
that U.S. taxpayers receive full credit for the foreign assistance they finance.

ADS 320 contains USAID policy directives and required procedures for branding and marking
USAID-funded programs, projects, activities, public communications, and commodities with
USAID’s standard graphic identity. The essence of the policy directives is that all USAID-
funded foreign assistance must be branded through use of a branding strategy and marked
according to a marking plan. This policy also permits USAID implementing partners to request
waivers, in whole or in part, for each project in exceptional circumstances when the marking
requirements would pose compelling political, safety, or security concerns.

The requirement for a marking and branding plan was incorporated in EDC’s cooperative
agreement, which states that such a plan shall be submitted to USAID within 120 days of the
date of the award. The AOTR was to assist the AO in reviewing the proposed branding strategy
and marking plan; the AO was to approve the marking plan and include it in the award.

EDC first submitted a marking and branding plan to the AO and AOTR for review on
January 22, 2011. Yet at the time of audit, 6 months after submission, the proposed marking
and branding plan had not been formally approved, despite receiving the AOTR’s final approval
on February 17, 2011. The AOTR and mission Office of Acquisition and Assistance (OAA) staff
gave different explanations for this delay. When queried, the AOTR initially stated that she had
sent her final approved marking and branding plan to the AO. Later, the AOTR said that the
mission’s OAA requested that she not send the final marking and branding plan because OAA
staff members were working on the remedy notice. However, the USAID/Afghanistan senior
acquisition and assistance specialist responsible for the project indicated that OAA had neither
received the marking and branding plan from the AOTR prior to the start of this audit nor had it
told her not to submit that plan for AO approval. The AOTR ultimately did not provide the AO
with the marking and branding plan for final review until August 7, 2011.

Because EDC did not have an approved marking and branding plan, it did not implement the
proposed plan. As a result, activities, public communications, and commodities were not being
properly marked or branded, and Afghan youth and their communities were not fully aware that
the American people were assisting them.

   Recommendation 4. We recommend that USAID/Afghanistan finalize and implement
   the Skills Training for Afghan Youth Project’s marking and branding plan.




                                                                                                9
EVALUATION OF MANAGEMENT
COMMENTS
Based on our evaluation of management’s response to the draft report, management decisions
have been reached on Recommendations 1 and 4. In addition, final action has been taken on
Recommendations 2 and 3. The following paragraphs provide our evaluation of the mission
comments on each recommendation.

Recommendation 1. The mission agreed to modify the project cooperative agreement to
include clear, discrete tasks and funding necessary to properly bring the project to an early
completion. In an action memo dated November 6, 2011, the mission director approved
terminating the cooperative agreement with EDC early and discontinuing the project. On
November 10, 2011, the cooperative agreement was modified to provide incremental funding for
closeout activities. The mission will also modify the cooperative agreement to incorporate
EDC’s closeout plan, which clearly delineates remaining tasks. The mission comments indicate
that the date for final action was December 28, 2011. Based on the mission’s actions in
response to the recommendation, a management decision has been reached.

Recommendation 2. The mission agreed that the director of USAID/Afghanistan’s Office of
Social Sector Development would remind her staff in writing to document significant meetings,
discussions, and decisions. The director issued a memorandum to the staff on December 8,
2011, to remind them of their responsibility as agreement and contracting officers’ technical
representatives to establish and maintain adequate files for activities that they manage. The
memorandum also emphasized the importance of documenting significant meetings,
discussions, and decisions and retaining these records in official files. Based on the mission’s
actions in response to the recommendation, final action has been taken on Recommendation 2.

Recommendation 3. The mission agreed to remind its acquisition and assistance staff
members in writing about the importance of ensuring that their communication with USAID
recipients is accurate. On December 5, 2011, the OAA director issued guidance reminding staff
members that it is their responsibility to ensure clear, concise, accurate, and complete
information is conveyed to grantees and contractors. The Skills Training for Afghan Youth audit
report finding and recommendation were also discussed at the weekly team meeting held on
December 6, 2011. Based on the mission’s actions in response to the recommendation, final
action has been taken on Recommendation 3.

Recommendation 4. The mission agreed to finalize and implement the branding and marking
plan. The mission comments indicate that the date for final action was December 31, 2011.
Based on the mission’s actions in response to the recommendation, a management decision
has been reached on Recommendation 4.




                                                                                             10
                                                                                            Appendix I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General Afghanistan Country Office conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions in accordance with our audit objective. We
believe that the evidence obtained provides that reasonable basis. The objective of the audit
was to determine whether the Skills Training for Afghan Youth Project was achieving its main
goals of providing technical, vocational, and functional skills for productive work; basic
education equivalency and life skills; and youth outreach and networking activities.

USAID/Afghanistan awarded a 3-year, $49.9 million cooperative agreement to EDC to
implement the project. As of August 31, 2011, EDC had expended $9.7 million of the
$12.0 million that USAID/Afghanistan had obligated for the project. The audit covered project
activities implemented by EDC from April 1, 2010, to August 31, 2011. Because the project
never progressed beyond the design phase, we did not select or test a sample of project
transactions to assess project implementation.

The audit was performed in the Islamic Republic of Afghanistan (Afghanistan) from July 21
through September 19, 2011. In Kabul, fieldwork was conducted at USAID/Afghanistan and at
EDC’s office. We also made site visits to three vocational and technical training institutions in
Kabul, Laghman, and Kunar Provinces. As part of the audit, we assessed the significant
internal controls used by USAID/Afghanistan to monitor project activities, for example, by
conducting site visits and reviewing performance data submitted in progress reports and Afghan
Info.5 We also reviewed the mission’s Federal Managers’ Financial Integrity Act report for fiscal
year 2010 and prior audit reports for any issues related to the audit objective.

Methodology
To answer the audit objective and obtain an understanding of the project goals, objectives, and
related performance and compliance requirements, we analyzed relevant project documents
including (1) the program description, (2) the cooperative agreement and all modifications, (3)
EDC’s technical application, (4) quarterly performance reports, and (5) correspondence
between EDC and USAID.

We interviewed USAID/Afghanistan staff in Kabul; education specialists in USAID/Washington’s
Bureau of Economic Growth, Agriculture and Technology/Office of Education; and EDC
administrators in Kabul; Washington, D.C.; and Boston, Massachusetts. We also visited ATVI
and KVO in Laghman and Kunar Provinces, where we interviewed staff members to obtain their
views about the project’s strengths and weaknesses and verified that classroom instruction was
taking place. We met with administrative and training staff and saw classrooms, equipment,
and supplies used to provide vocational education and technical training to Afghan youth.


5
 Afghan Info is a management information system used to track program and project information for all
mission-funded activities.


                                                                                                        11
To determine the reliability of computer-processed data received from the mission in support of
its obligated and disbursed amounts, we reviewed prior audits of the mission’s financial
statements and internal controls.




                                                                                            12
                                                                         Appendix II



MANAGEMENT COMMENTS


MEMORANDUM


TO:         Nathan Lokos, OIG/Afghanistan Director

FROM:       Jeffrey Ashley, Acting Mission Director /s/

DATE:       December 18, 2011

SUBJECT: Management Response to the Audit of USAID/Afghanistan’s Skills
         Training for Afghan Youth (STAY) Project (Report No. F-306-12-
         XXX-P)

REFERENCE: NLokos/KYamashita Memo dated November 15, 2011

Thank you for giving the Mission the opportunity to review the subject draft audit
report. Below are the Mission’s comments on the findings and recommendations
in the report.

I. General Comments

USAID/Afghanistan is committed to assisting the Government of the Islamic
Republic of Afghanistan’s (GIRoA) Ministry of Education in training and
educating its youth to drive economic and social development. The STAY project
was designed to support the United States Government (USG) stabilization efforts
and Afghanistan National Development Strategy goal of creating employment for
disenfranchised youth. The project was conceived prior to USG strategic
commitments to foundational investments and working with GIRoA ministries
through direct assistance mechanisms. Consequently, USAID is re-designing its
technical and vocational education and training (TVET) portfolio to better define
the activities we support in alignment with these priorities. Ensuring strong
management of these activities through the implementation of the audit


                                                                                 13
recommendations below will support the achievement of USG and GIRoA
development goals in Afghanistan.


II. Response to Audit Recommendations

Recommendation 1. We recommend that USAID/Afghanistan modify the STAY
cooperative agreement to include the clear discrete tasks and funding necessary to
properly bring the project to an early completion.

Mission Response: USAID/Afghanistan concurs with this recommendation.

Actions Taken/Planned: In early August 2011, USAID began the process of
finalizing a close-out plan with EDC, Inc., which includes a clear delineation of
remaining tasks and the necessary funding. An Action Memo to amend the STAY
Cooperative Agreement (CA) with EDC was approved by the Mission Director on
November 6, 2011 (Attachment 1). Subsequently, a CA modification was
executed on November 10, 2011, (Attachment 2) to fund incrementally the CA by
$1.5 million to finance close-out activities. The CA is being modified to
incorporate the phase-out plan.

Target Final Action Date: December 28, 2011.

Management Decision: The Mission deems that appropriate actions are being
taken to address Recommendation 1 and, therefore, requests OIG’s concurrence to
the management decision.


Recommendation 2. We recommend that the Director of USAID/Afghanistan’s
Office of Social Sector Development remind her staff in writing about the
importance of documenting significant meetings, discussions, and decisions in
writing, and direct them to do so.

Mission Response: USAID/Afghanistan concurs with this recommendation and
fully agrees with the importance of documenting significant meetings, discussions,
and decisions in writing to ensure proper oversight of USAID awards and
compliance with USG requirements. The Mission notes this finding is not a
systemic problem within the Office of Social Sector Development (OSSD).
Nevertheless, the Mission considers this a good opportunity to remind staff of
project/program documentation requirements. Given the Mission’s high staff

                                                                                14
turnover, it is imperative cognizant employees maintain complete files to preserve
vital information necessary for the effective management of their portfolios.

Actions Taken/Planned: The OSSD Director issued a memorandum to her staff
(Attachment 3) that reminds them of their responsibility as AO/COTRs to establish
and maintain adequate files for the activities they manage. The memo emphasizes
the importance of documenting significant meetings, discussions and decisions in
writing (and retaining those records in official files) and directs OSSD staff to meet
this requirement.

In addition, at the OSSD staff meetings, the Office Director will remind staff to
ensure AO/COTR files are in order. Prior to the departure of an AO/COTR, the
Office Director shall ensure pertinent files for awards he or she managed are
complete. The OSSD Director will not approve the employee check-out form
without proper hand-over of files to the incoming AO/COTR.

Target Final Action Date: Final action is considered complete with the issuance
of the OSSD Director’s memo.

Management Decision: The Mission deems appropriate measures have been taken
to fully address Recommendation 2 and, therefore, requests OIG’s concurrence to
the management decision and closure of the recommendation.


Recommendation 3. We recommend that USAID/Afghanistan remind its
acquisition and assistance staff in writing regarding the importance of ensuring
that their communication with USAID recipients is accurate.

Mission Comments: USAID/Afghanistan concurs with this recommendation. It
should be noted, however, that the finding is an isolated incident and is not a
reflective of systemic problem within the Office of Acquisition and Assistance
(OAA) of the Mission. Nevertheless, the Mission views this as an opportunity to
remind cognizant Agreement/Contracting Officers of their responsibility to ensure
clear, concise, accurate and complete information is conveyed to grantees and
contractors.

Actions Taken: On December 5, the Mission’s OAA Director issued pertinent
guidance to OAA staff (please refer to Attachment 4). The finding and
recommendation were also discussed at the OAA weekly team meeting held on
December 6, 2011.

                                                                                    15
Target Final Action Date: Required actions have been completed.

Management Decision: The Mission deems that appropriate actions have been
taken to fully address Recommendation 3 and, therefore, requests OIG’s
concurrence to the management decision and closure of this recommendation.

Recommendation 4: We recommend that USAID/Afghanistan finalize and
implement the STAY marking and branding plan.

Mission Response: USAID/Afghanistan concurs with this recommendation.

Actions Taken/Planned: USAID/Afghanistan notified EDC of the approval of
their Branding and Marking plan on November 17, 2011, (Attachment 5). The
Mission will confirm EDC’s implementation of the plan upon receipt of final
reports, market surveys and other studies conducted by the project.

Target Final Action Date: December 31, 2011.

Management Decision: The Mission deems appropriate actions are being taken to
address Recommendation 4 and, therefore, requests OIG’s concurrence to the
management decision.


Attachments:
   1) Approved Action Memo for EDC CA Early Termination dated 11/6/2011
   2) EDC CA Modification 6 dated 11/10/2011
   3) OSSD Office Director’s memo dated 12/08/2011
   4) OAA Director’s Guidance to OAA Staff dated 12/05/2011
   5) Email approval of EDC Branding and Marking plan dated 11/16/2011


cc: OAPA: HDorcus/RPorter/DNiss




                                                                              16
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
